Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

December 17, 2020
BY ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, D.C. 20543
Re:

IQVIA Inc. v. Florence Mussat, M.D., S.C., No. 20-510

Dear Mr. Harris:
We represent Petitioner IQVIA Inc. in this matter.
Pursuant to Supreme Court Rule 15.5, Petitioner waives the 14-day waiting period and
requests that the petition and brief in opposition be distributed to the Court on December 23,
2020, for its consideration at the January 8, 2021 Conference. We will submit the reply brief on
December 23 so that the Court will have full briefing in advance of the January 8 Conference.
Thank you.
Sincerely,
/s/ Neal Kumar Katyal
Neal Kumar Katyal
neal.katyal@hoganlovells.com
Counsel for Petitioner
cc:

Matthew W.H. Wessler

Hogan Lovells US LLP is a limited liability partnership registered in the District of Columbia. “Hogan Lovells” is an international legal practice that includes Hogan Lovells US LLP
and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Colorado Springs Denver Dubai Dusseldorf
Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami Milan Minneapolis
Monterrey Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rio de Janeiro Rome San Francisco São Paulo Shanghai Silicon Valley Singapore
Sydney Tokyo Warsaw Washington DC Associated offices: Budapest Jakarta Shanghai FTZ Ulaanbaatar Zagreb. Business Service Centers: Johannesburg Louisville.
For more information see www.hoganlovells.com

